NO.:

IN THE
SUPREME COURT OF THE UNITED STATES

OCTOBER TERM, 2020

TRENARD CALDWELL,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

Petitioner, TRENARD CALDWELL, pursuant to SUP CT. R. 39.1, respectfully moves
for leave to file the accompanying petition for writ of certiorari in the Supreme Court of the
United States without payment of costs and to proceed in forma pauperis.

Petitioner was previously found financially unable to obtain counsel and counsel
was appointed to represent Petitioner pursuant to 18 U.S.C. § 3006A. Therefore, in reliance
upon RULE 39.1 and § 3006A(d)(6), Petitioner has not attached the affidavit which would

otherwise be required by 28 U.S.C, § 1746. a
‘ 7 Bs eI
ne RE. EE eS

JOSE R.E. BATISTA, ESQ.
Counsel for Petitioner
BATISTA & BATISTA, P.A.
7171 Coral Way, Suite 400
Miami, Florida 33155
Tel. No. (305) 267-5139
Facsimile: (305) 267-4108
email: jrebatistalaw@gmail.com

Miami, Florida
September 2020
